                       U.S. Environmental Protection Agency 	                                                   11-P-0159
                                                                                                            March 14, 2011
                       Office of Inspector General


                       At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review           Improvements Needed in EPA’s Network
We sought to determine           Traffic Management Practices
whether the U.S.
Environmental Protection          What We Found
Agency (EPA) is effectively
managing Agency resources        The Office of Environmental Information (OEI) does not have consistent, repeatable
by implementing a                intrusion detection system monitoring practices in place, which inhibits EPA’s ability
management control structure     to monitor unusual network activity and thus protect Agency systems and associated
to monitor internal and          data. OEI also has not documented a methodology to aid in making decisions about
external computer network        potentially unusual network traffic. The Federal Information Security Management
                                 Act requires each agency head to provide information security protections
traffic.
                                 commensurate with the risk and magnitude of the harm resulting from unauthorized
                                 access, use, disclosure, disruption, modification, or destruction of Agency information
Background
                                 systems. Additionally, the act states that the National Institute of Standards and
                                 Technology shall prescribe standards and guidelines pertaining to federal information
EPA spends approximately         systems. Agency network security program deficiencies greatly decrease the
$160 million annually to         likelihood that consistent, repeatable results are produced in identifying threats to the
support Agency network           Agency’s network and increase the likelihood that potential threats will not be
operations and infrastructure.   identified.
We believe this sum reflects
the importance placed on         OEI does not consistently conduct management oversight of contractor performance
Internet connectivity and the    and reporting. In addition, key federally required security documents for EPA’s Wide
degree to which Agency           Area Network (WAN) were not complete or accurate. Furthermore, the approved
operations are now conducted     security plan had not been updated to reflect the current infrastructure and an
electronically. As new threats   associated authorization to operate was not issued prior to implementing the secondary
associated with the electronic   Internet connection. Office of Management and Budget Circular A-123 outlines
exchange of information          management’s responsibilities for establishing controls and performing oversight to
emerge, information security     ensure activities are performed as management intends. The Agency cannot accurately
has become a greater concern.    depict the operating environment and implement a system that meets federal
Recent information               requirements unless it can ensure that the security plan is complete, accurate, and
technology audits continue to    approved.
identify weaknesses in the
Agency’s information              What We Recommend
technology security program
and information systems.         We recommend that the Director, Office of Technology Operations and Planning,
                                 Office of Environmental Information, develop and implement comprehensive log
                                 review policies and procedures, establish a management control process to review
                                 contractor performance, and update and approve the WAN security plan and properly
For further information,         certify and accredit future significant WAN configuration changes prior to moving
contact our Office of
                                 them into production. The Agency agreed with our recommendations.
Congressional, Public Affairs
and Management at
(202) 566-2391.                  Due to the sensitive nature of the report’s technical findings, the full report is not
                                 available to the public.
